                                              OFFICE OF JOB CORPS


Office of Inspector General—Office of Audit




                                              PERFORMANCE AUDIT OF THE OCONALUFTEE
                                              JOB CORPS CENTER FOR THE PERIOD JULY 1,
                                              2004, THROUGH SEPTEMBER 30, 2005




                                                                    Date Issued: March 30, 2007
                                                                    Report Number: 26-07-001-01-370
Department of Labor                                    MARCH 2007
Office of Inspector General
Office of Audit                                        OCONALUFTEE JOB CORPS CENTER
                                                       PERFORMANCE AUDIT

BRIEFLY…                                               WHAT OIG FOUND
Highlights of Report Number: 26-07-001-01-370,         1. Performance data on High School Diplomas,
to the National Director of Job Corps                     General Educational Development (GED)
                                                          Certificates, and Vocational Training
WHY READ THE REPORT                                       reported by NPS in the Center Information
Job Corps’ stated mission is to attract eligible          System were properly supported in all
young adults, teach them the skills they need to          material respects.
become employable and independent, and place           2. Center personnel engaged in practices that
them in meaningful jobs or further education. To          improperly inflated the Center’s On-board
carry out this mission Job Corps uses                     Strength by allowing students who incurred
contractors and other federal agencies to                 excessive absences without leave to remain
operate centers and provide meaningful services           in the program, and authorized leave that
to those young people entrusted to them.                  did not meet the documentation
                                                          requirements of the Job Corps Policies and
Our audit of the Oconaluftee Job Corps Center,            Requirements Handbook.
a National Park Service (NPS) operated center,         3. Job Corps did not collect a refund of
shows a pattern of abusive practices by NPS               $190,367 from NPS that resulted from
management and center-level staff that resulted           underutilization of its facility based on
in Job Corps not having accurate assessment               budgeted facility capacity (underrun).
information and students not being given the           4. NPS misreported $2.8 million on its reports
level of services expected by Job Corps.                  to Job Corps for program year 2004 and the
                                                          first quarter of program year 2005, including
WHY OIG DID THE AUDIT                                     $124,608 in questioned Equal Employment
The purpose of our audit was to determine the             Opportunity (EEO) settlement costs.
following:
1. Whether NPS properly recorded and                   WHAT OIG RECOMMENDED
     reported student accomplishments and              The OIG recommended the National Director of
     attendance.                                       Job Corps collect the cost underrun of $190,367
2. Whether NPS followed applicable laws,               and recover $124,608 in questioned EEO
     regulations, policies, and requirements in        settlement costs from NPS; ensure Job Corps
     reporting on the Center’s financial activities.   Regional Office Project Managers and NPS
                                                       personnel improve their monitoring and
READ THE FULL REPORT                                   understanding of the requirements governing
To view the report, including the scope,               Center student accomplishments, attendance,
methodology and agency response, go to:                and financial activities; and require an annual
                                                       reconciliation of program year funds provided to
http://www.oig.dol.gov/public/reports/oa/2007/         and expenditures reported by federally operated
26-07-001-01-370.pdf                                   Centers.

                                                       In response to the draft report, the Office of Job
                                                       Corps agreed with our recommendations.

                                                       SUBSEQUENT EVENTS
                                                       The Job Corps National Director temporarily
                                                       closed the Oconaluftee Job Corps Center on
                                                       March 22, 2007, citing student health and safety
                                                       concerns as reasons for the closure.
                                                                                         Oconaluftee Job Corps Center



Table of Contents
                                                                                                                     PAGE


   EXECUTIVE SUMMARY ........................................................................................... 3

   ASSISTANT INSPECTOR GENERAL’S REPORT ................................................... 7

       Finding 1 – NPS properly supported reported student accomplishments,
          but did not properly record and report attendance as reflected in the
          Center’s On-Board Strength......................................................................... 8

       Finding 2 – The NPS did not follow laws, regulations, policies and
          requirements in reporting the Center’s financial activities. .................... 14

       Finding 3 – The NPS and Job Corps have not completed actions on the
          health and safety issues previously reported by the OIG. ...................... 20

       EXHIBIT ............................................................................................................. 27

       APPENDIX A. Background............................................................................... 31

       APPENDIX B. Objectives, Scope, Methodology, and Criteria....................... 33

       APPENDIX C. Acronyms and Abbreviations .................................................. 37

       APPENDIX D. Agency Response to Draft Report .......................................... 39




US Department of Labor—Office of Inspector General                                                                           1
Report Number: 26-07-001-01-370
Oconaluftee Job Corps Center




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                                  US Department of Labor—Office of Inspector General
                                                     Report Number: 26-07-001-01-370
                                                                Oconaluftee Job Corps Center




Executive Summary
In response to a request from the National Director of Youth Services for the National
Park Service (NPS), we audited the Oconaluftee Job Corps center (the Center) in
Cherokee, North Carolina. Our audit objectives were designed to answer the following
questions:

    •   Did NPS properly record and report student accomplishments and attendance?
    •   Did NPS follow applicable laws, regulations, policies, and requirements in
        reporting on the Center’s financial activities?

In addition, during the audit we identified concerns related to students’ health and safety
that were reported to Job Corps through Alert Report No. 26-06-001-01-370, entitled,
“National Park Service Has Not Assured the Safety and Health of Students at the
Oconaluftee Job Corps Center,” dated July 7, 2006.

The audit covered the Center’s and NPS’ reported information for the period from
July 1, 2004, through September 30, 2005.

Results

We concluded that student accomplishments of High School Diplomas, General
Educational Development (GED) Certificates, and Vocational Training reported in the
Job Corps Center Information System (CIS) were properly supported in all material
respects. However, we did identify problems associated with how Center personnel
administered the Job Corps Policy and Requirements Handbook (PRH) provisions
related to students with excess Absences without Leave (AWOL) and documentation to
support leave granted. Improperly reporting student accountability inflates On-board
Strength (OBS) and negatively affects Job Corps’ assessment process. We also found
that Job Corps did not request or receive a refund of $190,367 for an “underrun” that
resulted because the Center served fewer students than were funded by DOL for the
period July 1, 2004, to June 30, 2005.

We found problems in certain reported financial data that did not provide the Office of
Job Corps with information for use in comparing Oconaluftee’s performance to that of
other centers, and did not provide accurate data needed by Job Corps to make budget
decisions and report to Congress. NPS misreported items of Center costs totaling
$2.8 million for the period July 1, 2004, through September 30, 2005. This amount
includes $124,608 of questioned costs that NPS improperly charged the Center for an
EEO settlement payment.

We also issued an Alert Report No. 26-06-001-01-370, “National Park Service Has Not
Assured the Safety and Health of Students at the Oconaluftee Job Corps Center,” dated


US Department of Labor—Office of Inspector General                                        3
Report Number: 26-07-001-01-370
Oconaluftee Job Corps Center


July 7, 2006. The concerns expressed in that report involved a lack of operable fire
alarms throughout the facility, health issues due to the condition of the dining hall and
kitchen because of a long-term failure to correct leaks in the structure’s roof, and the
proximity of the Great Smoky Mountain Ranger’s firing range to the Center. Please see
the subsequent events discussion shown below for information that affects the
conditions included in the Alert Report.

We also discovered certain additional matters regarding Center-level internal controls
over financial activities that we will report to Office of Job Corps management in a
separate letter.

Subsequent Events

The Job Corps National Director temporarily closed the Oconaluftee Job Corps Center
on March 22, 2007, citing facility conditions that affect student health and safety as
reasons for the closure.

Recommendations

Our report contains ten recommendations to the Job Corps National Director, which are
summarized as follows:

       Ensure training is provided on applicable PRH and NPS requirements for
        all personnel with responsibility for recording and reporting absences
        without leave (AWOL), separating students who exceed AWOL limitations,
        and documenting leave requests and approvals.

       Ensure NPS and the Center strengthen the control environment to ensure
        proper recording and reporting of student accomplishments, attendance,
        and Center financial activity.

       Monitor and verify the accuracy of reported student accomplishments,
        attendance, and financial activity of NPS operated centers.

       Collect the cost underrun of $190,367 and obtain a refund of $124,608
        from NPS for the EEO claim improperly charged as Center operating
        costs.

       Require an annual reconciliation of program year funds provided to and
        expenditures reported by federally operated centers.




4                                        US Department of Labor—Office of Inspector General
                                                           Report Number: 26-07-001-01-370
                                                               Oconaluftee Job Corps Center


Agency Response

In her March 27, 2007, response to the draft report, the National Director of Job Corps
stated that the Office of Job Corps concurred with the report’s recommendations and
that the Center had been temporarily closed due to concerns about student health and
safety. The response further stated that the Office of Job Corps, the NPS, and other
appropriate offices would meet to develop a course of action for the Oconaluftee
Center. The National Director also stated that Job Corps will work with the NPS to
recover appropriate funds as feasible and will institute more rigorous monitoring of Job
Corps Centers, especially those operated by other Federal agencies.

OIG Conclusion

We recognize that actions regarding Oconaluftee are pending subsequent decisions.
Our report contained 10 recommendations and the previous Alert Report contained 3
recommendations. We consider the report’s 10 recommendations as unresolved and
the Alert Report’s 3 recommendations as resolved and open. We will reassess all of the
recommendations after Job Corps develops a course of action for the Center.




US Department of Labor—Office of Inspector General                                         5
Report Number: 26-07-001-01-370
Oconaluftee Job Corps Center




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




6                                  US Department of Labor—Office of Inspector General
                                                     Report Number: 26-07-001-01-370
                                                                      Oconaluftee Job Corps Center


           U.S. Department of Labor                             Office of Inspector General
                                                 Washington, DC 20210




                         Assistant Inspector General’s Report


Ms. Esther Johnson
National Director
Office of Job Corps
U. S. Department of Labor
200 Constitution Avenue, N.W.
Washington, DC 20210

In response to a request from the National Director of Youth Services for the National
Park Service (NPS), we initiated an audit of the Oconaluftee Job Corps Center (the
Center) in Cherokee, North Carolina. Our audit objectives were to answer the following
questions:

 •   Did NPS properly record and report student accomplishments and attendance?
     (Objective 1)
 •   Did NPS follow applicable laws, regulations, policies, and requirements in reporting
     on the Center’s financial activities? (Objective 2)

In addition, this report provides status information on issues we previously reported to
the Office of Job Corps regarding Center health and safety concerns.

Our audit covered the Center’s and NPS’ performance and financial reporting for the
period July 1, 2004, through September 30, 2005. We also noted certain additional
matters regarding Center-level internal controls over financial activities that we will
report to Office of Job Corps management in a separate letter.

We conducted the audit in accordance with the Government Auditing Standards for
performance audits issued by the Comptroller General of the United States. See
Appendix A for background information on this audit and Appendix B for the audit
objectives, scope, methodology, and criteria.




US Department of Labor—Office of Inspector General                                              7
Report Number: 26-07-001-01-370
Oconaluftee Job Corps Center


Objective 1 – Did the NPS properly record and report student accomplishments and
attendance?

Finding 1 – NPS properly supported reported student accomplishments, but did
not properly record and report attendance as reflected in the Center’s On-Board
Strength.

We found that performance data on High School Diplomas, General Educational
Development (GED) Certificates, and Vocational Training reported by NPS in the
Center Information System (CIS) were properly supported in all material respects.

However, NPS did not properly account for and report students who were
included in the Center’s On-board Strength (OBS). We found that Center
personnel engaged in practices that improperly inflated the Center’s OBS.
Center personnel allowed students who incurred excess absences without leave
(AWOL) to continue in the program beyond their mandatory separation dates. In
addition, Center personnel did not ensure leave granted was reasonable
because documentation required by the Policy and Requirements Handbook
(PRH) was not obtained and included in the students’ files and in some cases
students who met separation criteria as AWOL violators were improperly granted
leave.

Among other effects, an overstatement of OBS can result in less monitoring by
the Job Corps Regional Office (RO) and at the same time reduce the amount of
cost “underruns” to be refunded to Job Corps. Neither NPS nor the Job Corps
Regional Office (RO) adequately monitored or enforced controls over student
accountability. Moreover, NPS management and Center personnel contributed
to an environment that did not place proper emphasis on compliance with Job
Corps and NPS policies and procedures, including those related to student
accountability.

The PRH Appendix 501a describes OBS as “. . .an efficiency rating that depicts the
extent to which the centers operate at full capacity. The measure is calculated by the
percent of planned capacity (beds available) that is utilized on a cumulative basis. . . .
The national goal for OBS is 100%.” In our testing of the Oconaluftee morning
reports (daily student accountability documents), we found OBS was identified as the
number of students present plus the number of students AWOL or on leave. The report
included the calculation of the utilization rate referred to as OBS in the PRH. PRH
Section 6.4, “Student Enrollments, Transfers, and Separations,” states that any student
who is AWOL for 6 consecutive training days, or 12 training days within a 180-day
period, must be separated on the day the excess absence (6- or 12-day rule violation)
occurs. PRH Section 6.1 R2a prohibits the granting of leave as a way to artificially
postpone a student’s separation date.




8                                        US Department of Labor—Office of Inspector General
                                                           Report Number: 26-07-001-01-370
                                                              Oconaluftee Job Corps Center


Students with Excess Absences without Leave (AWOL) Were Not Separated as
Required

Based on a test of morning reports for the period October 1, 2004, through
September 30, 2005, we found 41 students with excessive AWOLs. These
students were allowed to continue in the program and were included in OBS a
total of 1,408 days – 34 days on average -- beyond their mandatory separation
dates based on the 6- and 12-training day rules. Of the 41 students we identified
with excess AWOLs who were allowed to continue in the program, we found the
following separation information for those students as of September 30, 2005:
    • 20 separated for excessive AWOLs
    •     9 separated as ordinary separations
    •     8 separated by parental withdrawal or resignation
    •     2 separated for disciplinary policy violations
    •     2 not separated

Students Were Improperly Granted Leave after Being AWOL and Leave Often
Was Not Documented

We found that 17 of the 41 students who required separation based on excessive
AWOLs were granted additional leave. In each of the 41 cases, the students
were allowed to stay in the program after reaching the maximum AWOL limit.
To determine if leave was properly documented, we tested a statistical sample
from a universe of 4,294 days students were absent from the center for certain
leave types or AWOL during the period October 1, 2004, through September 30,
2005. We found that nearly half [57 out of 122] of the days were not supported
by the documentation called for in the PRH.

PRH Chapter 6, “Administrative Support”, Exhibit 6-1 provides a description of
the allowable leave types along with the documentation requirements for each
type. For example, for Leave with Pay, the PRH provides the following:
          • Leave is not to exceed 10 training days per 6-month period.
          • Leave must be verified and documented by attending
              physician/hospital, funeral director, American Red Cross.
          • Verification must be obtained within 1 working day after leave
              request.




US Department of Labor—Office of Inspector General                                      9
Report Number: 26-07-001-01-370
Oconaluftee Job Corps Center


Examples of documentation errors found in our test of leave are as follows:

        There was no medical evidence in the student file as required by the PRH
         for a student who was granted leave without pay for a medical condition
         that required the student to go home for treatment.

        The student file did not contain documentation supporting a student’s
         request for leave with pay. “All other leave exhausted” was shown as the
         explanation on the leave form, but this is not an allowable reason to
         approve leave with pay.

        Although the leave without pay justification was shown as Family
         Compassion or Hardship, the form stated “student’s leave is being
         extended for another week per (Acting Director).” The CIS recorded the
         student as being AWOL the week before this leave was granted.

        The leave without pay justification was that the “student is sick.” However,
         the student folder did not contain supporting documentation. The PRH
         states that securing medical/dental treatment as concurred by Center
         health staff must be verified and documented by attending physician or
         hospital authority.

Based on a statistical projection of our sample results, we are 95 percent
confident that between 1,629 and 2,381 of the 4,294 days students were “absent
from the Center” (exclusive of winter and summer breaks, students away from
the Center seeking employment, or participating in work study projects) did not
have adequate support.

Failure to separate students when required and properly document leave granted
gives the appearance that Center management is more concerned about OBS
than compliance with the PRH. For example, the minutes of July 20, 2005,
discussed the timing for separating certain students. For one student the minutes
stated, “(name deleted) is not returning, separate in August.” We found that the
student was on AWOL on the day this decision was made. While the minutes do
not discuss the rationale for the actions taken by Center management, the
appearance is that Center management did not follow the PRH requirement for
leave reasonableness and AWOL separations.

Maintaining OBS within expectations can result in less oversight by the Job
Corps RO. The RO monitor believed a Center would need less monitoring if it
reported student strength in line with expectations, compared to a center
reporting low OBS. The RO monitor stated that he believed Oconaluftee was
well managed and performing within expectations during the time the former
Center Director operated the Center, and that the low OBS was a result of a
dormitory renovation project.



10                                         US Department of Labor—Office of Inspector General
                                                             Report Number: 26-07-001-01-370
                                                                Oconaluftee Job Corps Center


If the OBS had been reported correctly and the leave found not to be reasonable
had resulted in more AWOL separated students, the likelihood the RO would
have been more involved in reviewing Center operations would have increased.
Also, the NPS employee responsible for monitoring Oconaluftee told us that,
because she was not able to travel to the Center due to health issues, she used
the morning reports in her oversight responsibility. When provided our audit
results showing excess AWOLs throughout the audit period, the employee stated
that she knew the Center was not separating students with excess AWOLs and
had questioned the Center’s records clerk and the now retired Center Director
about this condition. However, violation of the PRH’s policy on AWOL separation
continued at the Center.

Moreover, based on information provided by Regional and National Job Corps
officials, it has not been Job Corps’ practice to request refunds of the calculated
“underrun” for Federal agency operated centers. Therefore, Job Corps did not
request or receive the refund of $190,367 for an “underrun” that resulted because
the Center served fewer students than were funded by DOL for the period July 1,
2004, to June 30, 2005. The underrun and its associated financial impact could
have been greater if recomputed to consider students who should have been
separated due to AWOL violations

Finally, inconsistent application of AWOL and leave policies may create an
appearance of favoritism. This concern was expressed by the Center’s
Standards Officer (CSO), who, according to the minutes of July 20, 2005,
meeting, stated, “We need to be consistent with AWOLs – students say the
discipline system is not fair if all AWOLs are not treated the same.”

Inadequate Control Environment at Oconaluftee

NPS management and Center personnel in place during our audit period
contributed to an environment that did not place proper emphasis on compliance
with Job Corps and NPS policies and procedures, including those related to
student accountability. In the case of Oconaluftee, whose OBS was affected due
to dorm construction, NPS and Center management found ways around an
already low OBS by allowing students who violated the PRH’s AWOL policy to
remain on Center and by granting leave to students even though they failed to
obtain required supporting documentation. The actions by those responsible to
ensure the mission of Job Corps is met for all students show a disregard for Job
Corps’ principles and an emphasis on maintaining a picture of quality service
even though the basis for that picture was misinformation caused by
manipulation. Additional examples of actions and attitudes that contributed to the
weak control environment include:

      The current Center Director stated she believes the emphasis on
       numbers, starting at the National level of Job Corps, throughout ROs, and
       to center operators, creates a condition that pressures operators to keep


US Department of Labor—Office of Inspector General                                       11
Report Number: 26-07-001-01-370
Oconaluftee Job Corps Center


         the numbers up at all costs. This emphasis on keeping the numbers up at
         all costs was echoed by other current and former personnel during the
         audit. The Center Director stated that this was evident at Oconaluftee
         when she was told by a student being separated for disciplinary reasons
         that the student was not worried because everyone knew the Center was
         too worried about numbers to terminate her.

        According to Center minutes of April 27, 2005, the Center Director
         explained that Oconaluftee dropped from 29 to 34 on the Outcome
         Measurement System (OMS) OMS-10 performance measures report, but
         noted that if the Center remained on the front page of the report, a review
         of the Center would not be scheduled. This suggests the Center Director
         believed the Center would receive less oversight if reported performance
         were relatively higher.

        In one instance, an anonymous complaint about Center operations was
         not acted upon by NPS and/or the Center and the complaint was not
         forwarded to the OIG, contrary to Workforce Investment Act regulations at
         20 CFR 667.630.

        In an email to the Center records clerk, the former Center Director stated,
         “Whatever the procedure may be, I [Center Director] make the final
         decision. . . .You will follow my directives without question.” The records
         clerk stated that she was concerned she would lose her job if she did not
         do as instructed.

        Through interviews with Center federal and contract personnel and
         a NPS employee, we found that a lack of training for the jobs they were
         assigned was a concern for those employees. In most cases the
         employees noted that they used a trial and error approach to learn how to
         perform their jobs.

 We compared the Center’s compliance with AWOL requirements during our
audit period to compliance subsequent to the audit period by scanning morning
reports for the period January through June 2006. We found that students who
violated the AWOL policy in the latter period were being separated as required by
the PRH. Nonetheless, the Office of Job Corps, NPS, and the Center must
ensure specific controls are in place so that adherence to Job Corps and NPS
policies and procedures is not dependent on any one individual.




12                                         US Department of Labor—Office of Inspector General
                                                             Report Number: 26-07-001-01-370
                                                                 Oconaluftee Job Corps Center


Recommendations

We recommend the Job Corps National Director ensure that:

   1. the National Park Service Headquarters, National Park Service Regional
      Offices, and Center Directors coordinate to provide training to all
      personnel working at or who monitor Federal Job Corps Centers on PRH
      guidance pertaining to absences without leave, the restrictions against
      granting leave for students who meet separation criteria, and
      documentation requirements for leave requested and granted;

   2. the National Park Service prepares a corrective action plan that would
      effectively change the overall NPS and Center control environment to
      promote compliance with PRH policy governing AWOL separations and
      documentation of leave requests rather than excessive concentration on
      OBS and OMS status;

   3. the Atlanta Job Corps Regional Office develop and implement a Regional
      monitoring plan that will verify the accuracy of reported student
      accomplishments and attendance at all Federal Centers within the Region.
      This plan should identify how the Federal Monitor will oversee both Center
      performance and each Federal operator’s internal monitoring process;

    4. the Office of Job Corps collects the underrun, shown as $190,367 on the
       June 30, 2005, 2110F Report; and

    5. the Office of Job Corps conducts additional monitoring of student
       accountability, including additional center visits during the remainder of
       Program Year 2006.

Agency Response

The Office of Job Corps’ response stated that they agree with our
recommendations. They also stated that they would work with the National Park
Service to recover the appropriate funds as feasible and would institute more
rigorous monitoring by the National and Regional offices of all Job Corps centers,
especially those operated by other Federal agencies.

OIG Conclusion

The recommendations are unresolved. We will reassess the recommendations
after Job Corps develops a course of action for the Center in light of Job Corps’
recent action to temporarily close Oconaluftee.




US Department of Labor—Office of Inspector General                                        13
Report Number: 26-07-001-01-370
Oconaluftee Job Corps Center


Objective 2 – Did the NPS follow applicable laws, regulations, policies, and
requirements in reporting on the Center’s financial activities?

Finding 2 – The NPS did not follow laws, regulations, policies and requirements in
reporting the Center’s financial activities.

The NPS did not adhere to the PRH guidance or the reporting requirements specified in
the Interagency Agreement between NPS and DOL regarding financial accounting and
reporting to Job Corps. As a result, NPS misreported items of Oconaluftee Job Corps
Center costs totaling $2.8 million during the reporting period July 1, 2004, through
September 30, 2005. The misreported costs, which include both under- and over-
reported items, consist of omitted costs, errors in reporting prior period construction
costs, costs not authorized by Job Corps, and improperly classified operating and
equipment costs. The misreporting occurred because NPS did not have adequate
internal controls in place to assure accurate accounting and reporting of financial
information. In addition, the Job Corps Regional Office Project Manager did not believe
it was the Regional Office’s responsibility to monitor the financial activity of the Center
since it was operated by another Federal agency. Ineffective monitoring contributed to
the misreported Center costs, which include $124,608 paid to settle an EEO claim that
NPS improperly charged to the Center’s operating budget and should be refunded to
Job Corps.

We audited the NPS 2110F reports submitted to Job Corps for the four quarters ended
June 30, 2005, (PY 04) and for the quarter ended September 30, 2005.1 In total, the
five 2110F reports show that approximately $6.0 million was charged to the Oconaluftee
budget. Our audit disclosed that reported costs did not always comply with applicable
criteria.

We traced selected costs through the NPS general ledger. We also examined certain
supporting documentation to determine whether the recorded costs complied with
applicable criteria. Of the $6.0 million reported, we identified misreported items of costs
totaling $2.8 million, which represents a 47 percent reporting error rate. (See Exhibit,
page 27.) While a majority of the errors represent misclassification on the 2110F
reports, $124,608 was an improper and unauthorized charge to the Oconaluftee Center
budget for an EEO settlement.

Costs captured on the 2110F reports are used by Job Corps to manage the Job Corps
program by analyzing how operators use funding provided by Job Corps. The reports
also help program management by showing that dollars were used for expenses that
help the students succeed. Moreover, the 2110F reports are used to report Job Corps
program information to Congress and provide key information in the overall program
funding process.


1
  Quarterly reports 2110F entitled, “Job Corps Conservation Center Financial Report Center Operations/Summary,”
are used by Job Corps to manage the Job Corps nation-wide program. The 2110F reports help Job Corps to analyze
how operators use the funds provided by Job Corps.

14                                                 US Department of Labor—Office of Inspector General
                                                                     Report Number: 26-07-001-01-370
                                                                Oconaluftee Job Corps Center


As summarized in the Exhibit (page 27), the $2.8 million in reporting errors consist of:

    1. Omitted Contractor Costs – The amounts reported on the 2110F by NPS did not
        include all costs for non-federal personnel (contractor) services provided
       by ResCare, Inc., and Cherokee Boys Club. These costs totaled $803,521
       during PY 04 and the first quarter of PY 05. We found the costs that should have
       been accrued in PY 04 were allowable PY 04 costs but were recorded in the next
       program year’s general ledger and paid with PY 05 funds provided by Job Corps.
       Based on the NPS 2110F reporting methodology and examination of the
       subsequent 2110F report, those costs were not reported to Job Corps. The
       costs that should have been accrued in the first quarter of PY 05 were allowable
       costs and were recorded in the next PY 05 quarter and paid with PY 05 funds.
       Based on the reporting methodology, this would have resulted in misreporting of
       PY 05 2110Fs by quarter, but would not result in a failure to report costs to Job
       Corps for the program year.

    2. Prior Year Construction Costs Reported in Wrong Period – Costs in the amount
       of $1,183,562 were incorrectly included in the PY04 and first quarter, PY05
       general ledgers and reported on the related 2110F reports. We noted costs in
       the amount of $302,205 improperly included in the current year general ledgers
       for PY 04 and the first quarter of PY 05 because they had not been properly
       accrued in the year the services were actually provided. We also found
       $881,357 of prior years’ cumulated costs that were improperly reported in the
       2110Fs for the PY ended June 30, 2005, and the first quarter report for PY 05
       ended September 30, 2005. The NPS accountant explained that his
       understanding was that construction funding was available over 3 years and that
       he was supposed to report the costs on a cumulative basis on the 2110F.

       The lack of understanding by the NPS accountant and NPS budget officials in the
       Atlanta Finance office and ineffective monitoring of NPS financial activities by the
       Job Corps Regional Office contributed to this misreported construction costs.

    3. Improperly Allocated Prior Year Construction Costs – Based on information
       provided by the NPS accountant who prepared the 2110F, this occurred
       because a former NPS National Director of Youth Programs had established a
       system to charge some construction costs to the NPS Washington Headquarters
       cost code rather than to the center where the construction took place. We noted
       $247,734 in invoices that were costs for the Oconaluftee Job Corps Center dorm
       renovation project had been charged to the NPS Headquarters cost code. The
       accountant stated that since those construction costs were charged to the NPS
       Headquarters cost code; they would have been allocated to all three centers
       operated by NPS.

       The improperly allocated construction costs violates the PRH requirement found
       in Chapter 5, Appendix 502, Financial Management, which states, “. . . federal
       centers construction and rehabilitation work is to be performed only on the basis


US Department of Labor—Office of Inspector General                                         15
Report Number: 26-07-001-01-370
Oconaluftee Job Corps Center


       of identified projects for which specific construction/rehab funding has been
       approved for the center’s program operating plan. Separate records should be
       maintained on the individual construction/rehab projects that have been
       approved in the center contract or CCC (Civilian Conservation Centers) program
       operating plan.” In addition, the Interagency Agreement between NPS and DOL
       states that construction rehab funds budgeted by DOL are for specific projects at
       specific centers.

       By indiscriminately charging Center-specific construction costs to all Centers,
       NPS removed budgetary controls over fund allocation needed to ensure NPS
       and Job Corps could accurately report actual expenditures and costs against
       funding provided for each center.

     4. EEO Settlement Costs – The NPS charged the Oconaluftee Job Corps Center’s
        operating budget $124,608 for claims paid to settle an EEO complaint by an
        NPS employee who worked at the center. The costs were charged to the
        Center’s other administrative expenses in PY 2004. NPS management directed
        the Center Director to find available Center funds to offset the costs.
        Subsequently, Center funds were found from the following sources:

           •   Transferring $50,000 from the Vocational Skills Training (VST) budget,
           •   Moving $50,000 of expended food costs from PY 2004 to PY 2003, and
           •   Transferring $25,000 of unused budget because of low OBS.

       Through our review of e-mails between the Center Administrative Officer (AO)
       and the Finance Manager of the Atlanta Finance Office, we found that the AO
       informed the Finance Manager, Center Director and two other NPS management
       officials that there was no cost category in the budget that would allow charging
       this type cost to the Center budget. The Finance Manager subsequently
       informed the AO that the EEO cost was an allowable charge to the Center’s
       budget line item, Other Administrative Expenses.

       DOL management officials informed us that NPS had requested permission to
       charge the claim to the Center budget, but Job Corps did not give approval for
       the EEO payment to be charged to the Center operating budget. In fact, we were
       told by DOL officials that a similar request had been made in the past and it was
       also denied.

       PRH, Chapter 5, section C provides that line item 16, “Other Administrative
       Expenses,” consists of all non-personnel expenses that are immediately related
       to administration support functions at the center. Examples include office
       supplies, office maintenance, office equipment rental, legal expenses related to
       student matters, and accounting expenses.

       In addition and according to the Center manager responsible for vocational
       training, by using the VST funds to pay an EEO claim rather than to fund

16                                       US Department of Labor—Office of Inspector General
                                                           Report Number: 26-07-001-01-370
                                                                Oconaluftee Job Corps Center


       approved student training projects, NPS withheld needed training opportunities
       for vocational students in PY 2004. Specifically, the following projects that had
       been approved and funded by Job Corps were either cancelled or limited:

             Cement masonry - $18,700 – limited
             Plastering - $19,000 - canceled
             Carpentry - $38,200 - canceled

       By not providing the hands-on training opportunities noted above, students’
       ability to obtain and maintain employment in their chosen vocation could have
       been negatively impacted.

    5. Misreported Contractor Personnel Costs – Contrary to the PRH, contractor
       personnel expenses totaling $467,442 were included as non-operating costs and
       reported as other expenditures. In addition, no explanations pertaining to those
       costs were provided as required on the 2110F. By not properly classifying those
       costs, personnel costs and overall operating costs for the center were
       understated.

       PRH Chapter 5, “Management” Chapter 5, Appendix 502, section C, “Cost
       Category Definitions,” states that all direct employees of the center as well as
       subcontractor employees (or contractor employees at CCCs) who perform
       ongoing functions at the Center, which might otherwise be performed by center
       operator staff, are to be included in personnel expense line items on the 2110F.

       By not properly reporting the non-federal personnel costs on the 2110F, Job
       Corps did not have a useful comparison of this NPS-managed Center’s operating
       costs for use in assessing the effectiveness of NPS’ management. In addition,
       Job Corps did not have accurate information in its report to Congress of its
       overall program operating costs.

    6. Equipment Costs Charged as VST Expense – We found evidence that
       equipment, as described in the PRH, in the amount of $5,657 was improperly
       charged to the VST Material cost category. Chapter 5 Appendix 502 of the PRH
       provides the requirements for what costs are to be charged to the equipment
       and furniture and VST Materials categories. Appendix 502, states “that costs of
       non expendable personal property having a life expectancy of over 1 year is to
       be included as equipment and furniture”. In addition, that same section states
       that VST Material will include costs of building material, consumable supplies
       and allowable construction, and equipment installation contracts.

       By not reporting and maintaining equipment separately as required by the PRH,
       assets can be lost through theft or abandonment without the operator’s or Job
       Corps’ knowledge. In addition, by not properly charging costs to equipment and
       VST Material, the budgetary process can be compromised and comparability of
       NPS centers to other Job Corps centers will be negatively affected.


US Department of Labor—Office of Inspector General                                         17
Report Number: 26-07-001-01-370
Oconaluftee Job Corps Center


Inadequate Accounting Controls Over Financial Reporting

The NPS did not adhere to the PRH guidance or reporting requirements specified in the
Interagency Agreement regarding financial accounting and reporting to Job Corps.
Specifically, the NPS did not have a method in place to ensure all accruals were
included in its general ledger and in the quarterly 2110F reports, which resulted in
misreported costs to Job Corps.

PRH Chapter 5, entitled, “Management”, Appendix 502, section E (4), “Accrual
Reporting” states the following regarding the accrual of costs in 2110F reports:

       Costs reported on the “2110F” must always be on the accrual basis, i.e.
       the cost of material and services received, regardless of when the invoices
       are received or paid. . . . It is important that all such charges, including
       earned, but unpaid salaries and payroll related costs, be accrued so that
       reported costs include all incurred expenses. Federal centers are
       permitted to expense inventory when received. This is the only exception
       to accrual accounting and reporting.

The NPS accountant stated that he was required to provide the 2110F to the NPS
Atlanta Finance Office Manager within 10 days after the end of each quarter. Because
all invoices were not available in the 10-day window and since NPS did not have a
system to close its books and provide accruals except at the end of each fiscal year, the
costs were not accrued or recorded in the general ledger when the services were
provided and were not reported to Job Corps. In response to our statement of facts on
this issue, the NPS accountant stated that NPS currently includes accruals on a
quarterly basis for its Job Corps centers. While there was evidence of some payroll
accruals in the general ledger, the costs noted in the above paragraphs were not
accrued and not included in the 2110F reports.

As discussed previously, we identified program year costs that were not reported when
incurred, resulting in the inaccurate reporting of costs for all periods concerned. For
example, the general ledger for PY 04 included costs of $517,281 that were excluded
from the 2110F for the year ended June 30, 2005. Those costs were identified by the
NPS accountant as prior year costs. Based on the NPS explanations, those costs
represent allowable Center costs incurred but not reported for PY 03 or years prior. The
NPS accountant told us that costs not reported in the program year-end report for the
period the services were received would not be reported to Job Corps, which raises a
significant concern for how costs are being reported by NPS to Job Corps.

Inadequate Job Corps Monitoring of NPS Financial Activity

The Job Corps Regional Office employee responsible for monitoring Oconaluftee’s
activity stated that he was not responsible for the financial activity of the NPS since it
was another Federal agency. However, the Interagency Agreement between the DOL
and the NPS states the Regional Office has a responsibility to perform oversight of


18                                        US Department of Labor—Office of Inspector General
                                                            Report Number: 26-07-001-01-370
                                                                  Oconaluftee Job Corps Center


budget activity. The Regional Office monitor for Oconaluftee also stated that he had
never seen the Interagency Agreement and therefore was not aware of the requirement.
His understanding of his role as monitor was based on what others told him about the
process.

By not accruing and reporting all allowable costs on the 2110F report, by including costs
on the report that did not apply to the period being reported, by charging unauthorized
costs to the Center budget, and by misclassifying reported costs, Center management’s
effectiveness in operating the center could not be fairly determined by NPS
management or by Job Corps. For example, if a cost category did not capture all costs
of services received, the potential that someone could intentionally or unintentionally
include unallowable or unauthorized expenses in the report increases. An example of
an unauthorized charge that went unnoticed by Job Corps can be seen in the above
discussion of an EEO settlement payment that was charged to the Center’s operating
costs.

Comparing budgeted costs to all costs that should have been reported provides a
control that can be used to identify these types of errors. In addition, by not including all
costs in the 2110F reports, Job Corps management does not have accurate information
in its report to Congress of its overall program operating costs.

In addition, by not effectively monitoring financial activity of and reporting by Federally
operated centers, Job Corps cannot ensure funds provided on a program year basis
reconcile to the actual incurred expenditures for that program year. A reconciliation of
budget to actual expenditures might have helped Job Corps identify the misreported
and unauthorized costs discussed in this audit report.

Recommendations

We recommend the Job Corps National Director ensure that:

   6. the Job Corps Regional Offices monitor the financial activity of National
      Park Service-operated centers.

   7. NPS management provides a plan to establish a control environment to
      mandate that all Job Corps policies and requirements be followed for
      recording and reporting costs. The plan should include, but not be limited
      to:

              •   How invoices for goods and services received by the Centers
                  are processed by the Center, the NPS Accounting Operations
                  Office, and the NPS Atlanta Finance Office,
              •   How costs reported on the 2110F are determined and verified,
              •   How only allowable and authorized costs will be charged to the
                  Center budget, how all costs charged will be included in the



US Department of Labor—Office of Inspector General                                            19
Report Number: 26-07-001-01-370
Oconaluftee Job Corps Center


                  appropriate cost category, and how such assurances from NPS
                  will be provided to Job Corps.

     8. the Office of Job Corps obtains a refund of $124,608 from NPS for the EEO claim
        improperly charged to the Oconaluftee Center operating costs, along with
        documentation that the refund was not made from funds provided by Job Corps
        for Center operations.

     9. NPS management provides written assurance that no other Job Corps
        Center’s operating budgets have been charged for the NPS directed EEO
        settlement payments. This assurance should include a plan to refund any
        such payments charged.

     10. Require an annual reconciliation of program year funds provided to
         federally operated centers to expenditures reported by those centers.

Agency Response

The Office of Job Corps’ response stated that they agree with our
recommendations. They also stated that they would work with the National Park
Service to recover the appropriate funds as feasible and would institute more
rigorous monitoring by the National and Regional offices of all Job Corps centers,
especially those operated by other Federal agencies.

OIG Conclusion

The recommendations are unresolved. We will reassess the recommendations
after Job Corps develops a course of action for the Center in light of Job Corps’
recent action to temporarily close Oconaluftee.


Previously Reported Job Corps Health and Safety Issues

Finding 3 – The NPS and Job Corps have not completed actions on the health and
safety issues previously reported by the OIG.

During our audit, we found significant issues involving student safety and health that
were reported in Alert Report No. 26-06-001-01-370, entitled, “National Park Service
Has Not Assured the Safety and Health of Students at the Oconaluftee Job Corps
Center,” dated July 7, 2006. The concerns expressed in that report involved a lack of
operable fire alarms throughout the facility, health issues due to the condition of the
dining hall because of a long-term failure to correct leaks in the structure’s roof, and the
proximity of the Great Smoky Mountain Ranger’s firing range to the Center.




20                                        US Department of Labor—Office of Inspector General
                                                            Report Number: 26-07-001-01-370
                                                                Oconaluftee Job Corps Center


Following are our previously reported recommendations to the Job Corps National
Director, the current status of those recommendations, and our assessment of the
actions taken by Job Corps to address the recommendations:

1. Direct the National Park Service to correct all fire detection and alarm system
   deficiencies at the Oconaluftee Job Corps center within 30 days.

   The alert report noted the lack of or the poor condition of existing fire detection
   equipment at the Oconaluftee Job Corps center. We reported that the Center safety
   officer stated that over the last several years he informed Center management,
   personnel at the Job Corps Regional Office, and at National Park Service
   headquarters’ management personnel of the dangerous conditions.

   Based on communications provided to us, we found the Center proposed using prior
   year funds that had been provided by Job Corps but not used for other Center facility
   needs to provide a center-wide fire alarm solution. We were provided evidence that
   a contract had been issued to correct this deficiency.

2. Instruct the National Park Service to begin repair to the dining hall roof and
   dining hall interior within 30 days and provide DOL a follow-up safety
   inspection report within 30 days after completing the project.

   As reported in the alert report, we found that the roof of the facility had been in need
   of replacement since 1994. Funding in the amount of $36,750 was provided in
   1994, but according to Center personnel, the funding was not sufficient to completely
   replace the roof; therefore, only a part of the roof damage was corrected. The
   condition of the roof continued to deteriorate until more severe damage was done to
   the interior of the building. We examined a report from the NPS Health Inspector
   that noted if the condition in the building were not corrected; the building might have
   to be closed because of health concerns to the students.

   Based on extensive communications found among Center personnel, Job Corps
   Regional Office personnel, NPS management, and Job Corps National Office
   management, we found that this condition has not been corrected. The Center
   Vocational Director had requested the Regional Office to help the Center obtain the
   funding needed to make the needed repairs to the facility that would correct the
   severe conditions noted in the alert report. The result of all the communications has
   been that funding in the amount of approximately $41,000 was provided by Job
   Corps. Those funds were used to provide temporary solutions to the problem.
   Based on information provided on January 29, 2007, by the Facilities Team Leader
   in the Office of Job Corps Support , we were told that while there is a continuing
   problem with the facility, it is not so severe that closure of the building would be
   called for at this time. He stated that an estimate of $140,000 had been suggested
   to make the corrections needed in the roof, including some asbestos removal. He
   further stated that, “the largest missing element that the Center needs is a Scope of



US Department of Labor—Office of Inspector General                                       21
Report Number: 26-07-001-01-370
Oconaluftee Job Corps Center


     Work for asbestos removal involving the roof replacement for the dining hall. That
     scope is due to him by next week (first week of February).”

     Please see the subsequent events information shown below.

3. Work with the National Park Service to investigate the location of the ranger
   firing range and obtain a written assessment from the Park Service of the risk
   to students and staff at the Oconaluftee Job Corps center within 30 days in
   order to determine whether the range should be relocated.

     The alert report raised a concern about the proximity of the Great Smoky Mountains
     National Park Ranger’s firing range to the Job Corps Center. Although the firing
     range is within three-fourths of a mile from the Center’s populated areas, we were
     provided extensive topographical information that explained that the range was
     positioned in such a place as to make almost impossible for a stray bullet to reach
     the Center. One of the most compelling pieces of information was the discussion of
     the type weapons used on the range. It was explained that the weapon with the
     longest range would not have the ability to reach the Center, even if a stray round
     were fired in that direction.

     The rangers also provided additional safety measures that they intended to
     implement, such as notifying Center management when firing would take place at
     the range and posting warning signs on the route to the range.

Subsequent Events

The Job Corps National Director temporarily closed the Oconalfutee Job Corps Center
on March 22, 2007, citing facility conditions that affect student health and safety as
reasons for the closure.

Agency Response

The Office of Job Corps’ response stated that they agreed with our recommendations.
They also noted that on March 22, 2007, the National Office of Job Corps temporarily
closed the Oconaluftee Job Corps Center due to concerns about student health and
safety. In addition, the response stated that the Office of Job Corps, the National Park
Service and other appropriate offices will be meeting to develop a course of action for
the Oconaluftee Center.




22                                        US Department of Labor—Office of Inspector General
                                                            Report Number: 26-07-001-01-370
                                                          Oconaluftee Job Corps Center


OIG Conclusion

We consider the Alert Report’s recommendations resolved and open. We will reassess
the recommendations after Job Corps develops a course of action for the Center.




Elliot P. Lewis
January 29, 2007




US Department of Labor—Office of Inspector General                                 23
Report Number: 26-07-001-01-370
Oconaluftee Job Corps Center




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




24                                 US Department of Labor—Office of Inspector General
                                                     Report Number: 26-07-001-01-370
                                                     Oconaluftee Job Corps Center




Exhibit




US Department of Labor—Office of Inspector General                            25
Report Number: 26-07-001-01-370
Oconaluftee Job Corps Center




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




26                                 US Department of Labor—Office of Inspector General
                                                     Report Number: 26-07-001-01-370
                                                                Oconaluftee Job Corps Center


                                                                                  EXHIBIT



                                MISREPORTED COSTS
                         FOR THE REPORTING PERIOD
                     JUNE 1, 2004 THROUGH SEPTEMBER 30, 2005
                        REPORTED ON THE 2110F REPORTS

                                  Program             1st
           6 Major               Year Ended      Quarter Ended                      Grand
       Expense Areas              6/30/2005        9/30/2005       Subtotals        Totals
 (1) Omitted
     Contractor Costs
     ResCare, Inc.                 $155,816          $158,304       $314,120
    Cherokee Boys Club             $188,340          $301,061       $489,401
 Total Contractor Costs            $344,156          $459,365       $803,521       $803,521

 (2) Prior Year
     Construction Costs
     Reported in the Wrong
     Period                        $787,204          $396,358                     $1,183,562

 (3) Improperly Allocated
     Prior Period
    Construction Costs             $247,734                                        $247,734

 (4) EEO Settlement
     Costs                         $124,608            ------                      $124,608

 (5) Misreported
     Contractor Personnel
     Costs
                                   467,442                                         $467,442

 (6) Equipment Costs
     Charged as Vocational
     Skills Training (VST)
     Expenses                       $5,657            -------        $5,657         $5,657

            Totals                $1,976,801                        $855,723      $2,832,524




US Department of Labor—Office of Inspector General                                       27
Report Number: 26-07-001-01-370
Oconaluftee Job Corps Center




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




28                                 US Department of Labor—Office of Inspector General
                                                     Report Number: 26-07-001-01-370
                                                     Oconaluftee Job Corps Center




Appendices




US Department of Labor—Office of Inspector General                            29
Report Number: 26-07-001-01-370
Oconaluftee Job Corps Center




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




30                                 US Department of Labor—Office of Inspector General
                                                     Report Number: 26-07-001-01-370
                                                              Oconaluftee Job Corps Center


                                                                          APPENDIX A
                                       Background

Job Corps is a national program carried out in partnership with states and communities
to assist eligible youth who need and can benefit from an intensive program, operated in
a group setting in residential and nonresidential centers, to become more responsible,
employable, and productive citizens. Included in the Workforce Investment Act of 1998
(WIA) is a provision for Job Corps centers to include CCCs under agreement with the
Department of Agriculture and Department of Interior.

In May 2005, the NPS National Youth Services Director, National Park Service (a
Federal entity within the Department of Interior) wrote the Job Corps National Director
and requested a financial audit of the three centers operated by NPS. The three
centers are the Great Onyx Job Corps Center located in Mammoth Cave National Park,
Mammoth Cave, Kentucky; the Oconaluftee Job Corps Center located in the Great
Smoky Mountains National Park, near Cherokee, North Carolina; and the Harpers Ferry
Job Corps Center located in Harpers Ferry, West Virginia. The Job Corps National
Director provided the NPS request for a financial audit to the OIG and we decided that a
performance audit designed to examine compliance with applicable criteria for financial
activities and for performance measures would be performed first at the Oconaluftee
Job Corps Center.

The Department of Labor formulates the budgets of federally operated centers annually
on a cycle that coincides with July 1 through June 30 Job Corps program year. Through
an Interagency Agreement between NPS and the Department of Labor, last updated in
1989, NPS agreed to use the funding in accordance with the PRH and in accordance
with the interagency agreement. For PY 04 (July 1, 2004, through June 30, 2005), the
Oconaluftee budget reported on the 2110F was $4,890,550. The budget for PY 05
(July 1, 2005, through June 30, 2006) was shown as $5,009,701.

Cost information reported to Job Corps on a quarterly 2110F reports by NPS through its
financial management system is used by Job Corps in its compilation of nationwide Job
Corps cost data for inclusion in reports to the Congress and the public and comparison
with other centers. Job Corps centers, including Civilian Conservation Centers, are
required to record information related to student accomplishments and accountability in
the Center Information System (CIS). This information is used by Job Corps to provide
reports of centers performance and to Congress in accordance with WIA legislation.




US Department of Labor—Office of Inspector General                                     31
Report Number: 26-07-001-01-370
Oconaluftee Job Corps Center




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




32                                 US Department of Labor—Office of Inspector General
                                                     Report Number: 26-07-001-01-370
                                                                  Oconaluftee Job Corps Center


                                                                               APPENDIX B
                     Objectives, Scope, Methodology, and Criteria


Objectives
Our audit objectives were to determine whether the NPS properly recorded and
reported student accomplishments and attendance and whether NPS followed
applicable laws, regulations, Interagency Agreement, and policies and requirements
relevant to its reported financial activities. In addition to the above audit objectives, we
also reported on the status of the issues we previously reported to the NPS on Job
Corps health and safety requirements.

Scope
Our audit covered the performance and financial reporting at the Oconaluftee Job Corps
Center in the Great Smoky Mountains National Park near Cherokee, North Carolina,
one of three centers operated by NPS. Our testing was performed at the Job Corps
Center, the NPS Finance Office located in Atlanta, Georgia, and the Accounting
Operations Center in Herndon, Virginia.

To accomplish our audit, we examined reported performance and financial activity for
periods from July 1, 2004, through September 30, 2005. We examined the following:
student accountability by examining OBS, and how OBS was affected by violations of
AWOL policy and student leave deficiencies; student accomplishments for the
performance measures of High School Diplomas, GEDs, and Vocational Training
Completions; financial reporting of $6.0 million in center expenses recorded on five
forms 2110F; and internal controls applicable to center operations. In our examination
of morning reports, we used an audit period of October 1, 2004, through September 30,
2005. In addition, we reviewed morning reports for January 2006 through June 2006 to
determine any changes in the AWOL procedures during that period compared to our
audit period.

During our audit, we used performance and attendance data from the CIS. We
considered the information reliable for use in our audit based on it being maintained by
the Job Corps program and its use by Job Corps in its reports to Congress. We used
this data source to verify that the Center’s documentation supported performance and
attendance data input into CIS by Center personnel. Financial data used in our audit
were obtained from the general ledger of NPS. The reliability of the NPS computerized
data was determined by comparing data in the general ledger to the 2110F data
maintained by the Job Corps Data Center and performing analysis of selected
expenditures and obtaining supporting documentation for those expenditures.

We considered the internal control elements of control environment, risk assessment,
control activities, information and communication, and monitoring during our planning
and substantive audit phases.




US Department of Labor—Office of Inspector General                                         33
Report Number: 26-07-001-01-370
Oconaluftee Job Corps Center


During our audit, we noted certain additional matters regarding internal controls over
Center-level financial activities that we will report to Office of Job Corps management in
a separate letter.

Our audit was performed in accordance with Generally Accepted Government Auditing
Standards for performance audits.

Methodology

To accomplish our audit objectives, we reviewed applicable criteria and compared the
requirements to the reported performance and financial results.

We used statistical sampling to test whether the Center’s leave policy resulted in
reasonable leave. We selected a simple random sample of 122 absent student
days from a universe of 4,294 absent student days. These were the days when
students were absent from the center during the period October 1, 2004, through
September 30, 2005. We used the assumption that leave would be considered
reasonable if the leave was properly supported in accordance with the PRH. The
OIG statistician projected the results of our sample findings using a 95%
confidence level.

In order to test students in AWOL status, we analyzed morning reports (student
accountability documents) for the period October 1, 2004, through September 30, 2005,
that were used by the National Park Service to monitor the Center’s operations. We
reviewed each report to identify those students who were shown on the report in
violation of the 6-and 12-day AWOL policy without being separated as required by the
PRH.

We used a combination of statistical and non-statistical sampling to examine the
performance measures of GED, and Vocational Training Completions. We also
examined 100 percent of the High School Diplomas reported by Oconalfutee. In our
testing of GEDs we chose 100 percent of all non archived student records (16) and then
randomly selected 10 additional students from the CIS system. This represented one
third of all reported GEDs. We used statistical random sampling to test 30 of 178
Vocational Training Completions (the OIG Statistician did not make a projection since
we concluded reported data was reasonable). For all three performance measures, we
examined student folders to verify documentation supported student accomplishments
recorded in the CIS.

Financial activity was audited using a combination of analytical procedures, staff and
management interviews, and document examination. We traced selected costs through
the operator’s general ledger and examined vouchers/supporting documentation to
authenticate the recorded transactions. .

In our internal control analysis, we relied on our assessment of the control environment
of NPS management and Center management to determine the reliance we would


34                                       US Department of Labor—Office of Inspector General
                                                           Report Number: 26-07-001-01-370
                                                              Oconaluftee Job Corps Center


place on internal control. Based on that assessment, we decided to rely on analytical
and document examination using substantive audit procedures rather than testing of
controls.

Principal Criteria

We used the following criteria to perform this audit:

   •   Federal Acquisition Regulation
   •   Job Corps Policy and Requirements Handbook;
   •   National Park Service and Department of Labor Interagency Agreement of 1989




US Department of Labor—Office of Inspector General                                      35
Report Number: 26-07-001-01-370
Oconaluftee Job Corps Center




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




36                                 US Department of Labor—Office of Inspector General
                                                     Report Number: 26-07-001-01-370
                                                                   Oconaluftee Job Corps Center


                                                                               APPENDIX C
                             Acronyms and Abbreviations

CIS                                       Center Information System

FAR                                       Federal Acquisition Regulation

OBS                                       On-Board Strength

OIG                                       Office of Inspector General

OMS                                       Outcome Measurement System

NPS                                       National Park Service

PRH                                       Policy and Requirements Handbook

RO                                        Job Corps Regional Office

DOI                                       Department of Interior




US Department of Labor—Office of Inspector General                                          37
Report Number: 26-07-001-01-370
Oconaluftee Job Corps Center




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




38                                 US Department of Labor—Office of Inspector General
                                                     Report Number: 26-07-001-01-370
                                                             Oconaluftee Job Corps Center


                                                                         APPENDIX D
                           Agency Response to Draft Report




US Department of Labor—Office of Inspector General                                    39
Report Number: 26-07-001-01-370
